NO. ______________________
IN THE
SUPREME COURT OF THE UNITED STATES

DONNIE JOE PHILLIPS, Petitioner,
VS.
UNITED STATES OF AMERICA, Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PROOF OF SERVICE

ALEXIS HALLER
Counsel of Record
LAW OFFICE OF ALEXIS HALLER
7960B Soquel Drive, #130
Aptos, California 95003
(831) 685-4730
ahaller@ahlawoffice.com
Counsel of Record for Petitioner,
DONNIE JOE PHILLIPS

PROOF OF SERVICE
I, Alexis Haller, do swear that on this date, June 7, 2021, as required by
Supreme Court Rule 29, I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI (as well as the instant Proof of Service) on each party to the
above proceeding or that party’s counsel, and on every other person required
to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class
postage prepaid.
The names and addresses of those served are as follows:
Solicitor General of the United States
Department of Justice, Room 5616
950 Pennsylvania Ave., N. W.
Washington, DC 20530-000
Counsel for the United States of America
Mr. Jason Hitt, Esq.
Assistant United States Attorney
501 I Street, Suite 10-100
Sacramento, CA 95814
Counsel for the United States of America
\\\
\\\
\\\
\\\

1

Mr. John Balazs
916 2nd Street, Suite F
Sacramento, CA 95814
Counsel for Gordon Owen Miller
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 7, 2021.

ALEXIS HALLER
Attorney for Petitioner,
Donnie Joe Phillips

2

